No. 20-405

IN THE

Ouprente Court of the Ettiteb Otateci
CITY OF MIAMI GARDENS,
Petitioner,
v.
WELLS FARGO & CO.
and WELLS FARGO BANK, N.A.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,154 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 30, 2020.

Colin Casey Hagan
Wilson-Epes Printing Co., Inc.

